TA

@OCKLE

; E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-7

SEILA LAW LLC,
PETITIONER,
Vv.
CONSUMER FINANCIAL PROTECTION BUREAU,
RESPONDENT.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of December, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR THE CATO INSTITUTE, CENTER FOR
INDIVIDUAL RIGHTS, AND AMERICANS FOR PROSPERITY FOUNDATION AS AMICI CURIAE SUPPORTING
PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
Michael E. Rosman Ilya Shapiro
CENTER FOR INDIVIDUAL RIGHTS Counsel of Record
1100 Conn. Ave, NW Trevor Burrus
Suite 625 CATO INSTITUTE
Washington, DC 20036 1000 Mass. Ave. N.W.
(202) 833-8400 Washington, D.C. 20001
rosman@cir-usa.org (202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 16th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary 4
State of Nebraska o Lee Quidra- he
My Commission Expires Nov 24, 2020 e :

Notary Public . Affiant

 

 

38953
 

Attorneys for Petitioner

Kannon K. Shanmugam
Counsel of Record

|e

Noel J. Francisco
Counsel of Record

Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006

kshanmugam@paulweiss.com

Party name: Seila Law LLC

Attorneys for Respondent

Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Consumer Financial Protection Bureau

202-223-7300

202-514-2217

 

Other

Paul D. Clement
Counsel of Record

presented by the petition

 

Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004

paul.clement@kirkland.com

202-389-5000

Party name: Court-appointed amicus curiae in support of the judgment below on the question

 

 
